<html>
<title> - THE MUHAMMAD ALI BOXING REFORM ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                   THE MUHAMMAD ALI BOXING REFORM ACT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON TELECOMMUNICATIONS,
                     TRADE, AND CONSUMER PROTECTION

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 1832

                               __________

                             JUNE 29, 1999

                               __________

                           Serial No. 106-26

                               __________

            Printed for the use of the Committee on Commerce


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 57-838CC                    WASHINGTON : 1999




                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

   Subcommittee on Telecommunications, Trade, and Consumer Protection

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL G. OXLEY, Ohio,              EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               BART GORDON, Tennessee
PAUL E. GILLMOR, Ohio                BOBBY L. RUSH, Illinois
CHRISTOPHER COX, California          ANNA G. ESHOO, California
NATHAN DEAL, Georgia                 ELIOT L. ENGEL, New York
STEVE LARGENT, Oklahoma              ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JAMES E. ROGAN, California           RON KLINK, Pennsylvania
JOHN SHIMKUS, Illinois               THOMAS C. SAWYER, Ohio
HEATHER WILSON, New Mexico           GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ROY BLUNT, Missouri
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Bynum, Arlen D., Legal Counselor, WBC........................     7
    Daniels, Alfonzo, Middleweight Boxer.........................    14
    Holden, Tony, President, Next Media..........................    11
    Goossen, Dan, President, America Presents....................    10
    Sirb, Gregory P., President, Association of Boxing 
      Commissions................................................     5
Material submitted for the record by:

                                 (iii)



                   THE MUHAMMAD ALI BOXING REFORM ACT

                              ----------                              


                         TUESDAY, JUNE 29, 1999

              House of Representatives,    
                         Committee on Commerce,    
                    Subcommittee on Telecommunications,    
                             Trade, and Consumer Protection
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
room 2123, Rayburn House Office Building, Hon. W.J. ``Billy'' 
Tauzin (chairman) presiding.
    Members present: Representatives Tauzin, Oxley and Shimkus.
    Also present: Representative Hall.
    Staff present: Robert Gordon, majority counsel; Bruce 
Gwinn, minority counsel; and Michael Flood, legislative clerk.
    Mr. Tauzin. The committee will please come to order.
    Last month the Los Angeles Times revealed the results of 
their investigation into widespread abuses in boxing. Sadly the 
Times found that the sport of boxing continues to be pummeled 
by allegations of corruption and conflicts of interest. Boxing 
rankings are sold by sanctioning bodies, promoters throw 
conventions for the sanctioning bodies as thinly described 
bribes, and boxing managers make payments of up to $20,000 in 
cash to improve their boxers' rankings and get more lucrative 
cable TV fights.
    Similar concerns have been echoed by the leaders of the 
sport. Former heavyweight champion Muhammad Ali has called for 
Federal legislation to protect boxers from the, ``dishonest 
ways of some promoters and managers.'' Boxing News has stated 
that, ``pure unvarnished greed is killing the game. Boxing 
desperately needs a Federal law to cut down on the terrible 
corruption.''
    Another article noted that Americans have more rights than 
any people on earth, but our fight game has degenerated into 
such a dirty and incestuous business that when you make noise, 
you get blackballed.
    Well, we are going to make some noise today, and we are 
going to keep on making noise until we can turn the sport 
around and hopefully reestablish boxing as the honest and clean 
sport that so many of us grew up admiring and appreciating in 
our lives.
    I, as a caveat, will tell you that I grew up as a young boy 
living in poor, rural Louisiana, and the first television that 
came to our community came to my grandfather's house. It was 
boxing that drew me to that television set with my dad, and it 
was a wonderful bonding experience as my dad and grandfather 
and I and friends from the community gathered around that only 
television set in the whole community and we watched the 
fights.
    I can't help but really feel a pain when we see the kind of 
accusations that the sport is now receiving in the press and 
from those who have appreciated it, such as Muhammad Ali.
    I would like to welcome our distinguished panel of 
witnesses today. We have two boxing promoters, Mr. Dan Goossen 
and Tony Holden, who can help us understand the pressures to 
influence a boxer's rating and whether the Times allegations 
have any merit. Mr. Arlen ``Spider'' Bynum is joining us from 
the World Boxing Council to present the perspectives of a 
rating and sanctioning organization. And Mr. Greg Sirb, 
president of the Association of Boxing Commissioners will 
update us on what success the States have had in implementing 
our earlier legislation, what additional improvements, 
standards are necessary.
    And we are fortunate to have a great boxer who can give us 
the inside-the-ring perspective, Mr. Alfonzo Daniels, a 
powerful middleweight fighter on the professional circuit.
    We hope this panel will be able to talk to us, tell us in 
their own words why boxing has reached what Muhammad Ali has 
called, quote, its lowest point, unquote, and what we can do to 
help restore its greatness.
    We would also be interested in any comments by the panel on 
the recent Holyfield-Lewis fight. Just last week a WBC 
promotional and management team was subpoenaed to appear before 
a United States grand jury investigating allegedly suspicious 
fight deals. The subpoena related to the decision by an 
International Boxing Federation judge in the recent heavyweight 
unification fight to award the title to Holyfield, the IBF 
champion, instead of to Lewis, the WBC champion who ended up by 
almost every single account as a clear apparent winner, 
according to most of the boxing commentators and, I might add, 
most of the public who watched that fight.
    Even if the fight were honestly scored, I think we need to 
understand from our witnesses whether there was any conflicts 
of interest in that fight that should be prohibited in the 
future, and can these practices be achieved through self-
policing, or do we need congressional reforms to enable the 
States to clean up the sport, root out the corruption, protect 
the sport, enhance it not only for the participants, but for 
all of us who have enjoyed it for so many years.
    The Chair is now pleased to yield to my friend from Texas 
Mr. Hall, himself a boxing addict and a man who confessed to me 
1 day--I don't know if I should say this in public, Ralph--that 
he had the chance to sign up a young fellow by the name of 
Cassius Clay and passed him up. Mr. Hall.
    Mr. Hall. That is how smart I am. Also my son brought me a 
part of a garden hose that he had put around his arm and swung 
it around, and I whipped him with the rest of the garden hose, 
and they came out with that Hoola Hoop about 3 years later.
    I am honored to introduce Arlen Bynum, Spider; everybody 
calls him Spider Bynum. He is probably the best known figure in 
our State that is involved with boxing and has been on the good 
clean side of boxing. But I have known him, Mr. Chairman, for 
long time. And I have been knocked around by him in the 
courtroom. He is a highly recognized attorney there, and his 
firm is one of the better firms in the Dallas and Texas area.
    But I think I will introduce him about boxing today. He has 
been a fighter. He has trained fighters. He has refereed. You 
have seen him on national television refereeing some of the 
major fights of this country. He has been a Commission of--
member of Texas Boxing Commission, I think they call it, 
licensing and regulations down there now. But he served 6 years 
there. Governor Richards asked him to be a member of the 
commission, and he has--since that time has become a legal 
advisor to both the World Boxing Council and the North American 
Boxing Federation.
    He appeared at Senator McCain's hearing not too long ago 
and his--I understand their position is that of course they 
support any regulation that is good and supports boxing. And he 
is the kind of people we need. And I think Arlen ``Spider'' 
Bynum is the kind of man that you would look to to be a 
commissioner and to be whatever heads up any organization that 
would do for the President's consideration for appointment or 
for this committee's recommendation.
    But I am honored to introduce him. I will tell you one last 
thing about him, because both you men would understand this, 
Mr. Oxley and you, that I represented plaintiffs all my life, 
and we sued insurance companies, and Spider defended them. But 
he came out to Rockwall, my home county, after I kind of quit 
practicing, was trying to quit, going into some other things, 
and we put a jury in the box, and I was representing Spider, 
helping him represent a company. And, of course, the jury just 
absolutely walloped us.
    And a little bit later I ran into one of the jurors down 
there, and she got me off to one side, and he said, Ralph, we 
got them up just as high as we could for you. They couldn't 
imagine me representing an insurance company. But I think I 
cost Spider that victory. So he is a gentleman and friend of 
mine, and a really close friend of mine. I thank you for having 
him here.
    Mr. Tauzin. Thank you, Mr. Hall.
    And the Chair is now pleased to recognize the vice chairman 
of our committee and the author of the reform legislation, my 
good friend from Ohio Mr. Oxley.
    Mr. Oxley. Thank you, Mr. Chairman. This committee has had 
numerous hearings over the last two decades on the need to 
reform the boxing industry. Four years ago we drafted 
comprehensive reforms that established a uniform system for 
licensing and supervising boxing matches. This legislation has 
been an unqualified success. In fact, the legislation took 
effect on the same weekend as the famous or infamous Mike 
Tyson-Holyfield fight, and the rest is well known. Tyson's 
actions were certainly barbaric and reprehensible. And because 
of our legislation, his suspension from boxing was enforceable 
and effective nationwide.
    But the path to enactment was not without controversy. At 
the subcommittee markup the bill was barely reported out by an 
11-to-10 margin. Some members opposed the bill because they 
believed it did not go far enough in addressing the conflicts 
of interest and corruption that have been plaguing the sport 
since its reintroduction in this country.
    Fortunately both sides agreed to a moderate step-by-step 
approach that enabled us to lay the foundation for the 
regulation of boxing. Most of the conflict of interest 
provisions were laid aside for future consideration. The full 
committee passed the remaining provisions on the uniform 
licensing and safety standards with a unanimous and bipartisan 
vote.
    Now 3 years later the States have successfully implemented 
our uniform system of licensing and safety standards. We can 
move forward on the members' desire to strengthen the act's 
conflicts of interest provisions. I have introduced 
legislation, H.R. 1832, the Muhammad Ali Boxing Reform Act, 
which achieves our goals that we were forced to leave behind. 
This legislation would institute six major reforms to weed out 
corruption from boxing. No. 1, it would prohibit financial 
conflicts of interest between boxing managers and promoters. 
Two, boxing sanctioning bodies would be required to establish 
objective rating criteria. Three, bribes from promoters and 
managers to sanctioning organizations would be prohibited by 
law. Four, new disclosure requirements would be established to 
ensure compliance. Five, we would protect boxers from 
unconscionable contracts. And six, unsportsmanlike conduct 
would be added as a new category of suspendable offenses.
    These reforms will help save boxing and increase public 
trust in the sport. I would note that this legislation has 
already received support from the International Boxing Digest, 
Boxing News, the editor of Ring Magazine, the World Boxing 
Council and numerous boxers, including, of course, Muhammad 
Ali.
    I look forward to hearing further ideas from our 
distinguished panel of witnesses on other problems in the 
sport. I also welcome suggestions from my colleagues on both 
sides of the aisle for improving this legislation and moving 
forward with bipartisan support.
    Mr. Chairman, like you I was thrilled to be able to watch 
Friday night fights for many years on television, and had a 
unique experience to get to meet and talk with Sugar Ray 
Robinson back when I was a teenager, and actually had a chance 
to go to his training facility in Chicago and watch him train, 
and coincidentally got to meet Joe Louis on the same occasion, 
which was a thrill, and I still have the autographs from both 
of those gentlemen. And then I had an opportunity to watch 
Sugar Ray spar before his title fight with Gene Fulmer several 
weeks later.
    So boxing has been an interest of yours and mine for a 
number of years. And like many other members, we were saddened 
to see the degenerative aspects to boxing that have led us to 
where we think we need to pass Federal legislation to help 
clean up the sport. It is an honorable sport. It is a great 
sport. We are pleased to have representatives from that great 
sport testifying before us today. We look forward to moving in 
legislation, along with our good friend Senator John McCain, to 
really put the final touches on our long-term efforts to make 
this sport as we enter the 21st century a sport that will equal 
the other professional sports that have been so popular in our 
country.
    And I thank the Chair and yield back.
    Mr. Tauzin. I thank the gentleman.
    Mr. Tauzin. I might add to my friend's comments, I was 
privileged to watch Roy Jones in Gulfport, Mississippi, just a 
few weeks ago unify his title. And one of the remarkable things 
about this sport and about that match in particular was that 
Roy Jones won every round on every card, and won two of the 
rounds 10-8, with two knock-downs, and he got booed. I couldn't 
believe a fan booing that remarkable performance.
    So it is a controversial sport. We know it is 
controversial. We are going to hear today some of the aspects 
of that controversy. And yet I want to compliment the gentleman 
for his effort legislatively to begin addressing some of the 
problems we will hear from the panel today.
    Let me now welcome the panel. Here are our rules: Three 
knock-down--no. It is we have a standard 5-minute rule, which 
means that your written statements are part of our record, so 
you don't have to read your statement to us. We prefer you just 
talk to us, just give us your best shot of what is in your 
statement, best points you got. And this little light will give 
you a warning; starts out green, and when it gets to be red, it 
means your time is up. Or if you rather, I could do a regular 
10-second warning in the ring.
    So if you just kind of converse with us a bit about your 
testimony so that we can get into a dialog with you and learn 
today from you as to what you think about the sport and what we 
can do to improve it.
    So we start with Greg Sirb, the president of the 
Association of Boxing Commissioners in Harrisburg, 
Pennsylvania. Mr. Sirb, you are on, sir. Five minutes.

STATEMENTS OF GREGORY P. SIRB, PRESIDENT, ASSOCIATION OF BOXING 
COMMISSIONS; DAN GOOSSEN, PRESIDENT, AMERICA PRESENTS; ARLEN D. 
``SPIDER'' BYNUM, LEGAL COUNSELOR, WBC; TONY HOLDEN, PRESIDENT, 
  NEXT MEDIA; AND ALFONZO DANIELS, MIDDLEWEIGHT BOXER, UPPER 
                       MARLBORO, MARYLAND

    Mr. Sirb. Thank you, Mr. Chairman. Good morning, and thank 
you for having me here before you today. The past 2 years I 
have been the president of the Association of Boxing 
Commissions. We are a registered nonprofit group. We represent 
48 State commissions, all the State commissions in the United 
States, some in Canada. We are trying to include some in 
Mexico. We also have the inclusion of our first Indian tribal 
commission, the Pequot Tribal Commission up in Foxwood, 
Connecticut.
    Before I begin, I would like to share some statistics with 
you. Last year for the U.S. In 1998 there were 818 pro bouts 
held in this country. That was about 1 percent decrease from 
the previous year. California had the most events with 90, 
followed by Florida with 56; Texas, 51; Tennessee, 44; Nevada 
and Missouri at 43; and Pennsylvania at 40. And it should be 
noted that the United States continues to be the major leader 
in boxing in this world. It held 71 of the 174 world title 
bouts within its borders. That is roughly 41 percent. The next 
closest country for world title bouts is England with 16. So by 
far the world title bouts in boxing happens in this country.
    There are approximately right now about 6,000 registered 
boxers in the United States. My testimony for today is about 
the regulatory control, and particularly when it comes into 
your State. As a State commissioner myself, when have you a 
fight in your State, particularly a title bout, you have four 
major players: You have the boxers, of course; you have the 
promoter, of course; have you the sanctioning body of the title 
they are fighting for; and you have the commission. Those are 
the four players. But only one of those four have the 
legislative and statutory authority to regulate the event, and 
that is the State commission. No other one of those players has 
that type of regulatory authority.
    There is no question each commission has to work with 
particularly the boxer and particularly the promoter, he is 
putting up a lot of money for the event, to work out the event, 
but they should never as a State commission relinquish the 
regulatory authority that is given to them.
    I think over the years what has happened is there has been 
some confusion between maybe a State commission and a 
sanctioned body, and the word ``sanctioning'' has been confused 
with the word ``regulating.'' to regulate, you have to have 
statutory authority given to you by that political government 
in your State. Only one party has that, and that is the State 
commissions.
    As the president of the ABC, we feel very strongly that 
State commissions need to have the power and the regulatory 
authority to regulate that event and should never delegate that 
authority. The issues that you have before you in the Muhammad 
Ali Act will go along way to ensure this, there is no question 
about that, particularly when it comes to the major areas of 
the boxer, manager and promotional contracts, the medical 
requirements, and the assignment of officials.
    There is no question that boxing needs to be more 
professional, more consistent and more uniform than how we 
handle things for the simple reason we have 48 jurisdictions 
throughout this country which handle boxing possibly in 48 
different ways. And one of the goals of the ABC has always been 
to try to be a little bit more consistent and a little bit more 
uniform in the way we handle it.
    I would like to close with saying that there are a lot of 
good people in boxing, a lot of people that I met over the 
years. I have come up through the ranks of the sport, and there 
are a lot of good people that really want to clean the sport 
up, but it is obvious we have some problems. We need some help, 
and hopefully with the hearings that we had the Senate and in 
the House, we can look forward to work ing with and clean up 
the sport and taking boxing to the level where it is supposed 
to be, with basketball, baseball, football and hockey. Thank 
you.
    [The prepared statement of Gregory P. Sirb follows:]
Prepared Statement of Gregory P. Sirb, President, Association of Boxing 
                              Commissions
    Good Morning. Mr. Chairman, members of the committee, thank you for 
giving me this opportunity to testify on behalf of the Association of 
Boxing Commissions--the ABC,
    My name is Greg Sirb and for the past two years I have served as 
the President of the ABC. This association is a registered non-profit 
group comprised of some forty-eight (48) members including all state 
boxing commissions in the United States, some commissions from Canada 
and the Mashantucket Pequot Tribal Commission of Connecticut. It should 
also be noted that three other Indian Tribal Boxing Commissions have 
also requested membership into the ABC--the Miccousukee Athletic 
Commission of Florida and the Oneida Indian Nation Athletic Commission 
of New York and the Mohegan Tribal Commission of Connecticut.
    Before I begin I would like to share with you a few statistics on 
professional boxing in the United States for the 1998 calendar year, 
There were 818 professional boxing events held in the United States, 
which represents approximately a 1% decrease from the previous year. 
California held the most events 90, followed by Florida (56), Texas 
(51), Tennessee (44), Nevada and Missouri at (43), and Pennsylvania 
with (40). It should be noted that the US continues to be the leader in 
professional boxing activity, with 71 of the 174 world title bouts 
being held within our borders, roughly 41%. England, with 16 bouts, is 
the next most active country for title bouts. Currently, there are 
about 8,000 registered professional boxers in this country.
    My testimony before you today focuses on the regulatory control 
that should be, and must be, provided by the various state boxing 
commissions. When any commission has a professional boxing event in its 
state, particularly a title event, there are always four major 
stakeholders: (1) the boxers, (2) the promoter, (3) the sanctioning 
body who's title is being fought for, and (4) the state boxing 
commission. Of these four groups, only one has the legal and 
legislative authority to regulate that event. That group is the state 
boxing commission.
    Although the other three groups, especially the boxers, deserve to 
have some input regarding the event and how it is handled, only the 
state commission has the statutory authority to regulate the event. 
This is particularly true when it comes to those rules and regulations 
that affect the health and welfare of the boxers. I believe that, over 
the years, the word ``sanctioning'' has become confused with the word 
``regulating''. The main difference is that to regulate you must have 
statutory authority in the jurisdiction that the event is taking place.
    As President of the ABC, I feel strongly that the regulatory bodies 
(the state commissions), though they must work with the various 
sanctioning bodies and promoters, must never delegate their authority 
or responsibility when it comes to regulating a professional boxing 
event.
    The issues that are addressed in the Muhammad Ali Boxing Reform Act 
will go a long way toward ensuring that state regulation remain in 
control of what can be a very complicated sport. This Reform Act 
guarantees that state commissions and the general public will be better 
informed about the contractual relationships between boxers, promoters, 
and managers. It also addresses the ranking procedures for professional 
boxers and discloses the revenue and expenditures that occur at an 
event. These improvements will not only enhance the sport, but will 
ultimately elevate professional boxing to the level that other major 
sports in this country currently enjoy. A status that, I believe, 
professional boxing deserves.
    In my opinion, it is essential that boxing regulations become more 
professional, more consistent and more uniform. Particularly in the 
areas of Boxer/Manager/Promoter contracts, medical requirements for 
boxers and assignments of referees and judges for particular bouts. The 
Muhammad Ali Boxing Reform Act will greatly enhance our ability to 
accomplish these important objectives. Without such assurances, the 
confusion that currently exists within this profession will hamper the 
growth of professional boxing.
    Again, I would like to thank the Chairman and the members of this 
committee for the opportunity to testify before you this morning. I 
would be willing to answer any questions that you may have at this 
time.

    Mr. Tauzin. Thank you very much, sir.
    Next would be Mr. Arlen ``Spider'' Bynum, legal counselor 
of WBC in Dallas, Texas. Mr. Bynum.

             STATEMENT OF ARLEN D. ``SPIDER'' BYNUM

    Mr. Bynum. Thank you. I am pleased to be here, and my co-
counsel today B.C. Gabe is here, and we would be more than 
happy to attempt to answer any questions you might have.
    We--when Senate bill 302 or 305, whatever, was introduced, 
the ABC testified before Senator McCain and Senator Bryan's 
committee. We said then as we do now that the ABC supports any 
legislation that improves boxing. Now, that is a very broad 
statement like God, mother, country, ice cream, and 4th of 
July, but it is sincerely meant. And to help implement this, 
the portions of the then Senate bill and now the present House 
bill, the ABC has tried to comply with. We have put on the 
Internet the constitution, bylaws, rules and regulations, 
championship rules, ratings; the names, addresses, faxes, known 
fax numbers and so forth of all the members of the rating 
committee, all the members of the board of Governors of the 
WBC.
    In addition thereto, about 3 or 4 weeks ago the ABC started 
posting on the Internet the reasons that fighter A has moved 
from number 1 to number 10. Now, obviously if Ralph Hall and I 
are in a boxing match, and I am rated number 1, and he is rated 
number 10, and he knocks me out, you don't have to really tell 
me why I have been moved down to number 8 or 9 or maybe out of 
the top 10. And you don't have to tell Representative Hall why 
he has moved up to number 3, but there are reasons.
    And I think it is difficult because there are, even like 
Greg in Pennsylvania and Carl and his people in Maryland, the 
addresses you have on fighters are probably 30 percent valid. 
The idea of putting all this on the Internet works because 
anyone that has interest can pick it up. And if you have 
suggestions on how we could do it better, then we will be open 
to those suggestions. But we are trying to comply with the 
principles of the legislation long before it is passed.
    Insofar as financial disclosure with the States, the ABC 
has absolutely no problem with that. The fee schedules for 
sanctioning fees are shown in the rules and regulations that is 
on the Internet. We have offered; if this committee wants a 
copy of the ABC rules, regulations, ratings criteria, medical 
rules, all of that is on the Internet. But if you want it, we 
will get it to you. In fact, the new rules and regulations and 
so forth are being printed now.
    We have tried to work very closely with the Association of 
Boxing Commissions. I was on a committee in the early 1980's 
that formed the Association of Boxing Commissioners with Jose 
Torres, who was to speak here today, and others. I am at times 
at odds with Greg on certain areas, but it is done in a manner 
that we end up with a solution that works. The Association of 
Boxing Commissioners is working. But something that I knew 20 
years ago that is more evident now, to make this work, you are 
going to have to give the ABC some way to fund itself.
    Now, I am perfectly aware of the problems involved with 
funding money. Money is scarce. Congress does not give money 
away. But it is a worthy project; it would keep this working. 
They are going to be have to be funded to do the job.
    I will be more than happy to answer any questions you might 
have, as will Gabe.
    [The prepared statement of Arlen D. Bynum follows:]
          Prepared Statement of Arlen D. Bynum, Counselor, WBC
    Representative Oxley and Members of The House Committee on 
Commerce: It is a honor and a privilege to be asked to appear at the 
hearing on H.R. 1832.
    Attached to and made a part of this Statement is a letter from the 
President of the World Boxing Council which shows his support of both 
the House and Senate versions of H.R. 1832 and S. 305. Mr. Sulaiman has 
previously appeared before Senator McCain's committee.
    The World Boxing Council is made up of 156 countries and 9 
Continental Federations. Several representatives of these countries and 
federations are present today.
    I am pleased to report that the World Boxing Council has already 
complied with the majority of Section 5, Sanctioning Organization 
Integrity Reforms.
    The Constitution, Rules and Regulations, Ratings Criteria, Medical 
Rules and Monthly Ratings and newsletter are on the Internet at 
www.wbcboxing.com. Sanction fee schedules are in the Rules and 
Regulations.
    Also, monthly, the reasons for changes in the World Boxing Council 
ratings are published. Likewise, the names, fax numbers and telephone 
numbers of the Board of Governors and Members of the World Boxing 
Council Ratings Committee are on the Internet.
    If any member of this Committee would like to have a copy of any of 
the above, it will be furnished.
    The World Boxing Council files a yearly tax return in the United 
States.
    The World Boxing Council fully complies and will in the future 
comply with Section 17, Required Disclosures to State Boxing 
Commissions.
    The World Boxing Council's Rules and Regulations provide for only 
one option given by a challenger to a promoter.
    The World Boxing Council has found that the majority of State 
Commissions have statutes and/or rules that protect the interests and 
rights of boxers competing in their states. Further, it has been the 
experience of the World Boxing Council that the majority of State 
Commissions are doing a creditable job in the licensing and regulation 
of boxing in their jurisdictions.
    The World Boxing Council has worked closely with the Association of 
Boxing Commissioners as to ways to improve boxing and will continue to 
do so.
    For all world title contests held in the United States, the World 
Boxing Council has agreed to use the Uniform Rules as adopted by the 
Association of Boxing Commissioners and has used and applied these 
Rules for several months.
    Each year the World Boxing Council has Ring Officials Seminars and 
Medical Seminars. Ring officials and doctors from all over the world 
attend these seminars. These seminars are well attended and the 
information developed is available to any ring official, doctor, State 
Commission and Congress.
    I have not made any mention of the part of H.R. 1832 relating to 
Promoters, but I will be pleased to answer any questions the Committee 
might have.
    Likewise, I am not aware if the recently filed amendments regarding 
medical examinations, CT scans for boxers and the public announcing of 
judge's scores after each round will be discussed. I am prepared to 
answer any questions relating to this. If the Committee so desires, I 
will prepare a Supplemental Statement.
    If there is any other information you need from the World Boxing 
Council prior to the June 24th hearing, let me know.
    Gabe Penagaricano, the other Legal Counselor to the World Boxing 
Council, will appear with me on June 24th along with other 
representatives of the World Boxing Council as mentioned above.
                                 ______
                                 
                                       World Boxing Council
                                                      June 15, 1999
Representative Michael G. Oxley
U.S. Representative
Washington, D.C.
    Honorable Representative Oxley: I deeply regret my unavailability 
to participate in the House Hearing on June 24 in Washington, due to my 
trip to Asia, which covers several countries in the area, and I had 
committed for since long ago.
    I hope that if there is one other hearing in the very near future, 
I will certainly participate. In the meantime, I am forming a committee 
headed by Mr. Arlen D. Bynum, WBC General Counselor at Large, and some 
representatives from our affiliated federations around the world.
    I take the opportunity of ratifying the unanimous decision of the 
WBC to participate, as needed, in full support of the plan of the 
Government of the U.S. for the improvement of boxing in that country.
    The WBC has already instituted in its system, many of the rules as 
detailed in the Muhammad Ali Legislation, as well as some 
recommendations, and we are more than willing to continue working 
closely and positively with the committee.
    I beg you to accept my very respectful regards and the best of 
luck.
                                          Dr. Jose Sulaiman
                                                           Chairman

    Mr. Tauzin. The next person is Dan Goossen, president of 
America Presents, of Denver, Colorado.

                    STATEMENT OF DAN GOOSSEN

    Mr. Goossen. Thank you very much, Mr. Chairman.
    I am very proud and honored to be here today. On the other 
hand, I am very disgusted that our industry has to go through 
this routine to clean itself up.
    You mentioned earlier about that we have to be on the level 
of other sports. I think it was Mr. Oxley, Congressman Oxley. 
And we should be at the level of other sports. It is one of the 
great sports in the history of America, of this world. Right 
now we haven't been able to clean it up ourselves.
    I was driving over here today for the hearing today, and on 
the radio one of the news broadcasts was that the hearings were 
being--were taking place today, and that it is about promoters 
and how they take advantage of fighters. And it really kind of 
nailed that last little portion of disgust onto me because last 
Sunday there was another article in the papers, Don Turner, 
trainer of Evander Holyfield and Michael Grant, two top 
heavyweights as we know, and he was saying that all promoters 
are crooks, thieves. And you just get tired of it. You finally 
want to stand up and say, listen, don't put us all in the same 
category.
    My background, I got into the boxing business in 1982. My 
dad dabbled in the boxing, training and managing fighters when 
he was also on the LAPD's--Los Angeles Police Department being 
a detective, went into the DA's office. And he taught us to be 
honorable, hard-working, and have integrity. And we brought 
that, I think, into our business back in 1982, a company called 
10 Goose Boxing, named after the eight boys and two girls in 
the family. And our goal at that time was to change the boxing 
business.
    These problems have been going on for many years. One of 
the key ingredients was not to have the boxing business change 
us. And today with Senator McCain pushing, and his vision along 
with this committee, seeing that there are a lot of ills that 
we cannot take care of ourselves--and from that position I can 
remember when the Boxing Reform Act was in discussion period, 
everyone said that it will never happen. Well, as we know, it 
became law. The Muhammad Ali Act, same discussions: Oh, it is 
not going to happen.
    It is going to happen, and it needs to happen. We need that 
enforcement. We need to take care of having a body enforce the 
integrity of this sport. It should be at the level of the other 
major sports.
    I participated in the boxing task force that was going to 
supply recommendations to Senator McCain, and it took many, 
many hours, started a little over a year ago, prior to the 
Lewis-Holyfield debacle back on March 13rd. Now, that point, I 
was again upset and disappointed that we had no promoters, 
virtually no boxing people on this boxing task force. I think 
there were two that were constantly on it. And we felt, my 
partner Matt Tinley, America Presents, the company that we run, 
we felt it was important to get the ship in the right 
direction. And many, many hours, telephone conference calls, 
meetings, everything there was to try to supplement and help 
out the recommendations as it related to the Muhammad Ali 
Boxing Act, and we did that because we do care about the sport, 
and we do want it run properly, and we do want the protection 
of the fighters. But it is fair to say we all need protection: 
the managers, the trainers, the promoters. There are good 
people in this business. It is a great business. We have just 
got to make sure that from the standpoint of the ABC, which I 
have had many conversations with the president Greg Sirb and 
some of the other vice presidents of the ABC, that we--the time 
is now for us to police ourselves and supplement everything 
that Senator McCain and this committee has established.
    But we need to get uniform contracts, uniform rules and 
licensing, uniform medicals, and most importantly, last but not 
least, an officials school that you touched on before, Mr. 
Chairman, and that is the integrity where the fans and the 
fighters have trust in our judges and our officials. I will go 
into that later on any questions you might have.
    I see my time is up. Thank you again for letting me speak.
    Mr. Tauzin. Thank you, Dan.
    Next, to shed more perspective on the promoters' aspects, 
Mr. Tony Holden, president of Next Media of Tulsa, Oklahoma. 
Tony.

                    STATEMENT OF TONY HOLDEN

    Mr. Holden. I want to thank you for having me out. First of 
all, my name is Tony Holden. I am also president of Holden 
Productions. We have been boxing promoting for 10 years. And 
one thing I want to address, what Dan said, is there is a few 
bad seeds out there that give all of us a reputation. Dan 
brought up his grandfather. Well, my grandfather was a 
minister, my father is a minister, and I am a boxing promoter. 
So the image do have a tendency to make you duck your head, and 
it is really not right sometimes. But I want to bring up some 
things that are probably going to project the image just a 
little bit worse. But I hate doing that, but since we are going 
to try to get this thing fixed, I think we need to dig it up at 
once, because I feel we have one shot at this thing.
    One of the differences between pro sports and boxing, you 
have the NBA, the NFL, these kids are mainly picked up through 
the draft. To get to the draft, you have to go to college. You 
have to get a college degree, and you have to maintain a 
certain grade point average. To be a professional boxer, you 
know, half the kids might not even have a high school diploma, 
and yet these kids are going on business, with God-given 
talents, who can be multimillionaires in the future, they are 
going in and negotiating their own contracts with no attorney, 
no counseling. And the problem is a lot of times, yes, it is 
the promoters that take advantage of these kids, but another 
thing is they develop trust with a manager. They will go get a 
manager and sign a multiyear deal, and if the manager does not 
perform, the kid, the fighter still has to pay him throughout 
that term. There is no performance clauses. Or it is very rare. 
There is nothing, no standard performance clause.
    And again, a manager can take up to 33\1/3\ percent. NBA 
and NFL can only take up to 3 percent as an agent. Let's look 
at the difference, and I have seen this happening many times. A 
boxer will have problems with management. He is not performing. 
He has got a 5-year deal. He has nothing to do; I mean, no 
fights, nothing at all. He is sitting there with his livelihood 
at a standstill. He will have to hire another manager and pay 
another high commission, and I have seen this happen three to 
four times with a boxer is making nil just trying to make ends 
meet. And I believe that this ought to be addressed and set up 
some type of guidelines to protect the fighters in this sport 
because a lot of times they do put a lot of trust in the 
management, and the management is not quite there looking out 
after the fighter.
    And one more thing. I support this bill 100 percent, but 
there is one thing I would like to break down on this bill. 
There should be guidelines on how it is going to be policed, 
and I believe that we need to really step up the State 
commissions to really handle this bill.
    Now, the problem with the State commissions is there is no 
guidelines on the hiring. Each State is--a commissioner can be 
appointed by Governor, labor commissioner, it all varies. And I 
am glad to see Mr. Sirb here trying to get everything together, 
but he can only have so much power when this thing is split up 
in all different--within all different States. I come from a 
State where we hired a new commissioner 2 years ago. This State 
did 28 boxing shows a year. This commissioner had absolutely no 
experience whatsoever. He was positioned in as a favor; you 
know, I really don't know how he got in there. But the very 
first fight he did, he suspended 13 out of the 14 fighters. 
These kids cannot go to work. They were under suspension. It 
was an embarrassment to their career. It took approximately 6 
months to get him to lift the suspension. And he suspended them 
on a rule that did not exist. He had to come back and 
apologize. But anyway, the State went from 28 shows a year to 1 
show a year simply because there was no guidelines on hiring 
this commission.
    And there is a lot of good people out there; Mark Ratner, 
Mr. Sirb, Mills Lane. I believe that this committee should also 
develop guidelines. If you can't force the States to abide to 
them, you can recommend it to them. But it is hard to keep the 
discipline in this sport if every State varies and every rule 
is different. Thank you.
    [The prepared statement of Tony Holden follows:]
        Prepared Statement of Tony Holden, President, Next Media
    I want to thank this committee for inviting me to speak. I have 
been a professional boxing promoter for the last ten years. My company, 
Holden Productions, has promoted boxing events from small charity fund 
raisers to top pay-per-view events.
    As a promoter and a fan of the sport, I support the bill, H.R. 
1832. This bill is a large step in adding more credibility to the 
sport. There have been several statements made in front of this 
committee of how, unlike other professional sports, boxing operates 
without any league or industry business practices. I am sad to say that 
boxing goes a step further, but in the wrong direction. Not only do 
other sports have to operate under certain standards, they also receive 
the majority of their athletes from a draft. To be entered in the 
draft, you are more than likely going to have a college degree. For 
these athletes to compete in college, they are required to maintain a 
certain grade point average. Most athletes have to maintain a certain 
grade point average to play sports even when they were in high school. 
Compare this to professional boxing. The majority of these athletes 
never went to college and a large percentage are high school dropouts. 
The point I am making is the majority of these athletes have no formal 
education. This leaves them very vulnerable of being manipulated by a 
few very aggressive promoters and managers. Several of these athletes 
will sign a multi-year contract without any counsel to review their 
contract. Many fighters have fallen to the deceitful words, ``Trust me, 
here is some up-front cash. Now sign here.'' There is little question 
that for years professional boxers have been exploited and used to 
their detriment and to the benefit of unscrupulous promoters/managers/
consultants. These professional boxers have never had a representative 
group to assist them or be an advocate on their behalf. The reference 
in the preamble to the restrictiveness and anti-competitiveness of some 
business practices of certain promoters and sanctioning bodies has been 
something which has plagued the industry for years and is extremely 
difficult to overcome.
    Another problem with the sport is the monopoly of the championship 
titles held by a very few promoters. The word ``options'' is what keeps 
this monopoly alive. To fight one of these promoters' champions, your 
fighter has to sign options. This keeps the title under the promoters 
contract. A promoter may argue that such demands make it more fair 
because the promoter would not care which fighter won since he had both 
under contract. However, this type of argument fails because a 
promoter, even with both fighters under contract, may still favor the 
more ``marketable'' fighter. If two promoters are involved, one should 
do what he can to protect his fighter against any favoritism.
    If there is less monopoly, it would create more competition which 
would force promoters to negotiate and to execute these contracts with 
good business practices. This alone would bring much integrity to the 
sport. As H.R. 1832 places limiting options to one year, it does take a 
step towards breaking the monopoly.
    My company has never had long-term contract problems or option 
problems. The reason for this is that during the last ten years, we 
have never signed a fighter to a promotional deal. Many promoters 
believe this practice is very naive, but I can assure you that we have 
never had a fighter leave our company. I don't believe I should force a 
fighter to work for me. I am not against contracts. I believe if a 
promoter produces a signing bonus, he must be assured that he will get 
his investment back in the future. However, no fighter should ever be 
obligated longer than two years. One of the key factors which this Bill 
must address is to have some type of automatic termination rights in 
the promotional rights agreements to avoid the boxer from having to 
hire legal counsel, file suit and be effectively shelved for an 
indefinite period of time during the boxer's prime boxing years. What 
will occur is that a fighter and a promoter may have a five-fight deal 
or a three-year deal or something of the like, and toward the end of 
the contract, the promoter wishes to extend the contract for another 
certain term. There are basically two methods in which a promoter will 
leverage the boxer to do this: (1) a promoter will simply try to tie up 
the fighter alleging that one of the fights may not have been completed 
or a draw or had been postponed thus extending the contract or (2) 
using his influence with the sanctioning body so that the fighter is 
concerned that he will lose the match regardless of how well he fights. 
This is an extremely predominant practice and it requires the boxer to 
concede on various issues simply to be able to fight and make some type 
of a living while still being oppressed by his promoter.
    I would like to express my concerns on this bill. I believe the 
enforcement should be through the State Commission, as to do otherwise 
would create a myriad of problems. But there are several problems with 
the State Commissions. One major handicap these Commissions have are 
the sanctioning bodies. Whenever there is a Title Fight, the Commission 
loses much control. To have Title Fight, the State Commission is forced 
to use the sanctioning bodies' referee and usually two of their judges. 
This deletes the commission's authority on any discipline for a bad 
decision by a judge or a referee.
    Another problem is that certain States are vulnerable in hiring 
unexperienced commissioners. There are no guidelines for States to hire 
a commissioner with any qualifications or experience. Each State has 
different methods for hiring a commissioner. This sometimes results in 
an administrator being transferred or the hiring of a commissioner with 
absolutely no experience in the sport. These results can be 
devastating. For example, two years ago a State hired a new 
commissioner with no formal boxing experience. One show he suspended 
every fighter on a card except one, that is 13 fighters that could not 
fight again until this suspension was lifted. The reason for the 
suspension is that the commissioner accused the fighters of not 
complying with a series of rules. The problem was these rules never 
existed and after several weeks of these fighters being banned from the 
sport, the commissioner was forced to lift the suspension. More and 
more problems occurred due to lack of this commissioner's experience, 
resulting in the sport to disappear. In one year, this State went from 
over 25 events down to one.
    Before we can enforce the rules and add new measures, such as H.R. 
1832, we must first lay out the groundwork. We must have guidelines for 
the hiring of State Commissioners. I strongly suggest that we get the 
most experienced people involved in this process, such as Nevada's Mark 
Ratner or Judge Mills Lane. This sport is an American tradition and it 
needs the help of this committee to allow it to continue.
    I want to thank this committee and Senator McCain for taking time 
in their busy schedules to help create an important change that is 
desperately needed in the sport of boxing.

    Mr. Tauzin. Thank you, Mr. Holden.
    And finally, Mr. Alfonzo Daniels, middleweight boxer from 
Upper Marlboro, Maryland. Welcome. You are going to give us the 
perspective from inside the ring about how the sport works and 
how promoters and managers operate with boxers. So you got a 5-
minute round.

                  STATEMENT OF ALFONZO DANIELS

    Mr. Daniels. I don't think I am trained enough for this 
one. It is kind of hard to go off of what Mr. Holden just said. 
What he said is absolutely--boxers put a lot of trust in their 
managers, people who see their talent a lot of times before we 
see it ourselves. So we say, hey, this guy is the other--he is 
the inside of my head that really says I am good, I can be the 
best. So when we sit down and we do up a contract with these 
gentlemen that realize our talents, we really have no idea what 
it really is worth. So there may lie a problem when we don't 
know our own value and they do.
    When I first got into this sport of boxing some 10 years 
ago, boxing had a very good name, a very good name. You could 
see 1,000 kids in neighborhoods running around shadowboxing, 
and, you know, not only young kids, you see older gentlemen 
shadowboxing and wanting to be boxers. Now boxing has a bad 
name. A lot of people wonder if 24 and 4 why am I still in this 
sport, and my hope is to someday sign that big contract and be 
a champion and have to deal with the big troubles that are 
involved with the contract, and the lawyers, and the promoters, 
and giving up that big percentage that is not given in any 
other sport.
    So this legislation is definitely necessary. I had written 
up a little chart here, but I am just trying to go off my head 
here like you wanted. But definitely let's get it through, 
let's make it happen swiftly. But one question involved here is 
between the contracts and the fighters, and only looking after 
fights that are 10 rounds and above. There is a lot of times 
that where fighters sign a contract way before they ever get to 
a 10-round fight. So we have to look at them before they get to 
10 rounds because they sign their contract and the rest of 
their boxing career away before they ever reach that point. 
Thank you.
    Mr. Tauzin. Thank you, Mr. Daniels.
    And the Chair will recognize himself and the members in 
order.
    Let me ask you, Mr. Daniels, in terms of--when it is--when 
you first were asked to sign a contract, was there competition 
for you? Were there several managers trying to get to you sign 
with them, or was there just one manager talking to you?
    Mr. Daniels. Luckily it was just one manager talking to me.
    Mr. Tauzin. You say luckily, but wouldn't it have been 
better--I mean, in basketball, for example, we just made a 
comparison in basketball as a player that really looks good, a 
lot of teams take a look at him, they sent scouts out there, 
there is a competition for him, you know, everybody wants him. 
They are trying to pick him in the draft, and they are willing 
to pay him a tidy sum because it is very competitive. But in 
your sport very often it is just one manager shows up to sign a 
contract with a boxer, right?
    Mr. Daniels. Right.
    Mr. Tauzin. That doesn't help you negotiate. Nobody else 
vying for you, so do you--do you end up just signing with the 
first guy that paints a nice rosy picture for you?
    Mr. Daniels. Pretty much. The route I came, I was stationed 
in the Army overseas in Germany, and most of my amateur career 
was from over there. I only came back stateside for three 
fights before I turned pro. And one gentleman came up and said, 
hey, let's go up to the State commission. I would like turn you 
pro and, you know, do up a contract. And lo and behold, we were 
sitting in front of the State athletic commissioner signing a 
contract.
    Mr. Tauzin. That fast. How many fights did you fight below 
10 rounds after signing that contract?
    Mr. Daniels. About 10.
    Mr. Tauzin. So you signed way before you ever got a 10-
round fight.
    Mr. Daniels. That is correct.
    Mr. Tauzin. Your record is 24 and 4 right now.
    Mr. Daniels. Correct.
    Mr. Tauzin. That is a pretty good record. What is your 
chances of getting that big fight?
    Mr. Daniels. At this point? I'll say luckily I am unsigned. 
So hopefully somebody will say, hey, here is a kid that has got 
potential, let's grab ahold of him and get him that shot.
    Mr. Tauzin. But you got to kind of wait for that to happen.
    Mr. Daniels. Exactly. It is a waiting game.
    Mr. Tauzin. Tell me how this works now. Mr. Holden, you 
talk about the big percentages that are paid. Why is it so high 
in this sport? Is there a good reason, justification for taking 
that much of a boxer's pay?
    Admittedly Mr. Oxley's bill is going to try to regulate 
those contracts so there is some quid pro quo and there is some 
standards that you won't indenture a boxer forever in a 
contract, but obviously it is kind of hard to get into legally 
setting the right of a commission. And that is normally left to 
the marketplace to set it. But why is it so high in boxing?
    Mr. Holden. Well, because that is really a two-sided sword, 
because if you get a boxer early in his career, he might be 
fighting for $100 a round, and you are going to have to--a lot 
of times if I want to get a fighter fights, I might go to 
another promoter and say, hey, I will pay half his purse or 
whatever, just to start getting him experience where there is 
no money in it. But where the problem comes is when a 
promoter--or a manager, rather, grabs a big-name fighter making 
big-time money and starts taking that percentage when he didn't 
get him there, and that happens quite a bit.
    So it is going to be hard to justify a percentage. Keep in 
mind I said the NBA and NFL gets 3 percent, but look at the 
dollars that go into. They have a minimum.
    Mr. Tauzin. Dan, give me your perspective on it, please.
    Mr. Goossen. Well, Mr. Chairman, first off I think that 33 
percent percentage that managers receive is way too much. You 
have almost seen a decrease at the major level of the position 
of a manager. If you look at Evander Holyfield, for instance, 
he doesn't have a manager. He has a trainer, and he has an 
attorney, Jim Thomas. It is at the lower level really where we 
need to control that 33\1/3\ percent. In the older days, 20, 30 
years ago, it wasn't unheard of for a manager to give a monthly 
stipend to a fighter, living expenses, rent, food, everything 
to keep him above water until he got to the big time so that he 
was able to concentrate on boxing. Now, at that point, unlike 
an agent in another sport, you usually aren't on a baby-sitting 
job 24 hours a day.
    Mr. Tauzin. It is kind of like an investment; you are 
investing in a future product.
    Mr. Goossen. Exactly. But in today's world that 
responsibility--I am already cutoff.
    Mr. Tauzin. Go ahead. The good thing about being Chairman.
    Mr. Goossen. My answers for questions are just as long as 
my speech.
    But in today's world, it is kind of reversed onto the 
promoter. The promoter is now taking care of the monthly 
stipend. So we see less and less of managers out there, 
especially at the higher level.
    Mr. Tauzin. With the indulgence of my friends, if you 
quickly just give me your opinion of the Holyfield-Lewis fight, 
honestly scored in your opinion?
    Mr. Sirb. No.
    Mr. Tauzin. Mr. Goossen.
    Mr. Goossen. I wouldn't say that it was dishonest, but I 
would certainly say it was incompetent scoring.
    Mr. Tauzin. Mr. Bynum.
    Mr. Bynum. My feelings exactly.
    Mr. Tauzin. Mr. Holden.
    Mr. Holden. I would have to say highly influenced.
    Mr. Tauzin. Say that again.
    Mr. Holden. Highly influenced.
    Mr. Tauzin. Highly influenced; i.e., dishonest.
    Mr. Holden. Well, I don't believe that the judge was told 
to make Evander win. I think the judge is there representing 
that organization and gave Evander the nod, knowing that he 
represented the organization he was with.
    Mr. Tauzin. Mr. Daniels.
    Mr. Daniels. From a boxer's point of view?
    Mr. Tauzin. Boxer's point of view.
    Mr. Daniels. Lewis was robbed.
    Mr. Tauzin. Mr. Oxley.
    Mr. Oxley. Mr. Daniels, in your career, now, is fighting a 
full-time profession, or do you have other means of income?
    Mr. Daniels. Right now I have other means of income, and 
thank goodness, because until you hit that pinnacle and you get 
that promoter behind you, you have to have a day job.
    Mr. Oxley. What is your day job?
    Mr. Daniels. Right now I am working with with a plastic 
surgeon. I am his assistant. I am a rare breed. I am a rare 
breed.
    Mr. Oxley. You can work on Holyfield's ear.
    Mr. Daniels. I think we can do that.
    Mr. Oxley. That is quite an interesting day job. Are you--
in your career--you say you are 24 and 4; is that correct?
    Mr. Daniels. Correct.
    Mr. Oxley. And how old are you?
    Mr. Daniels. Just turned 29.
    Mr. Oxley. What would be agewise considered a prime for a 
fighter?
    Mr. Daniels. Twenty-nine.
    Mr. Oxley. Interesting.
    Mr. Daniels. Supposedly we get that manly strength and 
knockout punch, and days are shorter in the ring. And thank 
goodness, I am looking so forward to them.
    Mr. Oxley. What is your weight classification?
    Mr. Daniels. Middleweight, 160.
    Mr. Oxley. And you have always fought in that 
classification?
    Mr. Daniels. Yes.
    Mr. Oxley. And you mentioned the fact that as far as a 
manager, you had a good relationship with your manager?
    Mr. Daniels. Yes, I have. But kind of things have slowed 
because we are waiting and waiting, and that call is not 
coming. So I am growing impatient by the moment and ready to 
break.
    Mr. Oxley. Have you fought in different States?
    Mr. Daniels. Yes, I have.
    Mr. Oxley. How many?
    Mr. Daniels. Three different States.
    Mr. Oxley. And from your perspective can you tell the 
difference State to State in terms of regulations and the 
enforcement procedure by the commission and so forth?
    Mr. Daniels. Well, one of the States that I fought in I 
really don't believe they had a commission. And I fought in 
Pennsylvania with Mr. Sirb, and here in Maryland, locally. And 
Maryland and Pennsylvania are pretty stiff, and everything 
seems to be on the up and up.
    Mr. Oxley. Mr. Sirb, let me ask you, how many State 
commissions are there?
    Mr. Sirb. We have--right now I think we have five that do 
not have a State commission.
    Mr. Oxley. Is that because they don't have boxing matches 
there?
    Mr. Sirb. They have boxing matches there, but the State 
government itself has decided not to form a commission. So 
again, under the Professional Boxing Safety Act they have to 
have a commission come in and supervise that event, and we have 
had some minor problems with that, and we are going to look for 
some revisions to that.
    Mr. Oxley. Mr. Goossen, you mentioned that boxing needs 
protection, but protection from whom? And help me understand 
what that means in terms of writing legislation.
    Mr. Goossen. Unfortunately it is protection from the 
industry itself. We have not been responsible enough in 
policing it. So the protection that we have seen now is in the 
form of the legislation that is before us. However, I feel for 
the health and the growth of our industry, we need to start 
policing ourselves. The promoters need to be the leaders 
because, again, you can almost target in the Muhammad Ali Act 
promoters and sanctioning organizations. And if promoters are 
targets, that means that overall promoters are doing something 
wrong. When we see a baseball owner or football owner, we don't 
see the players and the owners at odds all the time. I mean, 
they are on the same team. And we need to have the industry as 
a whole police themselves without legislation always having to 
be down our neck because it means we are doing something wrong.
    Mr. Oxley. Thank you, Mr. Chairman.
    Mr. Tauzin. Thank you, Mr. Oxley. Mr. Shimkus is 
recognized.
    Mr. Shimkus. Thank you, Mr. Chairman.
    First question to Mr. Bynum. Do sanctioning organizations 
or their employees ever receive payments or gifts from 
promoters or managers other than any publicly reported 
sanctioning fees?
    Mr. Bynum. I was going to note that right above that 
question is the word ``bribe.'' I, as a fighter, as training 
fighters, a commission member, State commission member, as a 
member of the World Boxing Council and one of their lawyers, I 
am not aware of anyone bribing, and they certainly haven't 
tried to do me. And I don't even get paid for what I am doing.
    And insofar as do sanctioning organizations get money from 
promoters for other than sanction fees, now, that is a very 
valid question, and my friend Dan Goossen and I have discussed 
this. The only thing I am aware of is that at sanctions 
organizations, conventions, and I can speak only for the World 
Boxing Council and the North American Boxing Federation, 
promoters do on occasion pay for a dinner held during that 
convention. But as far as actually paying for the convention, 
the answer is no.
    Now, I can give you a good example where two present big-
name promoters several years ago funded, along with Everlast 
and another glove company, safety tests to be done on gloves, 
ring padding, ropes and so forth in Wayne State University. 
Now, this was owned by half of the sanctioning organization. 
These two promoters paid--I think my recollection is clear--
$10,000 each to Wayne State University for this particular 
program to be done. It was done by the Texas Boxing Commission 
and the World Boxing Council.
    What came out of that changed a great deal of things on 
gloves, ropes, ring padding, boxing safety, whether head gear 
would or would not prohibit injuries, and so forth. That is a 
payment, but it is also for a specific purpose.
    Insofar as promoters paying anything to sanctioning bodies 
on behalf of the ABC, I can tell you I am not aware of it at 
all except for the dinners on occasion at the conventions 
yearly.
    Mr. Shimkus. I guess some would say it is kind of funny for 
us to be asking that question when we are accused of dinners 
and that ourselves. So----
    Mr. Tauzin. Would the gentleman yield, and I will be happy 
to extend his time.
    I point out that the Times magazine article we referred to 
earlier in the introduction of this hearing contained some 
rather interesting statements; for example, Ron Weathers, a 
manager in Texas, testifying under subpoena to the grand jury, 
New Jersey, quote, It is just common knowledge that if you want 
to get something done, you have got to grease their palms--
referring to the sanctioning bodies--either $10,000 or $20,000, 
depending upon where you want the guy rated. In addition, rival 
promoter Bob Aram says as far back as 1983 he paid $500,000 to 
a Puerto Rican promoter whom Aram described as a bag man for 
the WBA. Payment was made to get a title fight for Ray ``Boom 
Boom'' Mancini. The Puerto Rican promoter has denied the 
accusation to Ring Magazine. But those accusations are in 
print, and apparently before the grand jury in New Jersey.
    And so I want to--again, I will extend the gentleman's 
time--but I want to point out that it is not just a question in 
the sort of the ether, it is a question drawn from actual 
statements being made before grand juries that those types of 
payments are being paid to the sanctioning organizations. And 
perhaps would you like to respond to that.
    Mr. Bynum. I would be more than happy to address that. 
First, insofar as Ron Weathers is concerned, I have known him 
for 25 years. I think you need to consider the source there. 
Insofar as people coming to conventions and paying $20,000 to 
get their fighters moved up in the ratings, I am not aware of 
that at all. And, Gabe, if you are aware of it--I am just not--
if it happens, it doesn't happen in front of me, or around me, 
or near me. And we have got two promoters here, and I can 
guarantee you that neither Tony nor Dan has ever paid a cent to 
get a fighter moved up in the ratings.
    Mr. Shimkus. Let me continue, Mr. Daniels. I apologize. I 
had a press conference to go to, otherwise I would have been 
here for your opening comments. Twenty-nine years old, enjoy 
the sport, I guess I have two--you hear all this surrounding 
you about the industry. I hope you don't get blacklisted 
because of testifying and not be rated someday because of your 
openness.
    Two questions, if you could, quickly: What are the 
perceived problems from young aspiring athletes as yourself, 
and where are the doors closed that should be opened based upon 
your ability? Second, how do we fix it?
    Mr. Daniels. Where are the doors closed? The doors are 
closed if you don't have a good promoter. No door can be open 
if you don't have a good promoter. I don't care if you are a 
terrible fighter or a great fighter. A great fighter without a 
good promoter doesn't get a chance. A bad fighter with a good 
promoter will get a chance.
    Mr. Shimkus. Can I interrupt? What is the difference 
between a good promoter and a bad promoter?
    Mr. Daniels. Who can get you seen.
    Mr. Shimkus. And how do you think they have that ability to 
get seen?
    Mr. Daniels. TV--TV, radio. I have appeared on TV Home Team 
Sports a couple times, Tuesday Night Fights before they were 
canceled or went out of business, one or the other.
    If you can be seen, you can get that shot. You can be 
noticeable to the other boxing organizations. You have room to 
lobby your cause that, hey, this is--I have got a good fighter 
here, he is talented, he is marketable, let's get him rated, 
let's get him a shot to become a champion.
    Mr. Shimkus. What is the financial incentive of a promoter? 
What is the contract they sign with you?
    Mr. Daniels. I believe they receive a part of that 33 
percent; whatever that percentage may be is between the manager 
and the promoter. Hopefully that doesn't come out of my 66.
    Mr. Shimkus. Mr. Goossen, you are a promoter.
    Mr. Goossen. Yes.
    Mr. Shimkus. Does that jibe with--really great command of 
the English language--but is that similar from your 
perspective?
    Mr. Goossen. What I would say with reference to what Mr. 
Daniels just mentioned, doors open with promoters. Promoters 
are leaders. We do approximately 50 events a year, and we want 
that special fighter because it is a lot of work from day 1 
when they have their first four-round fight up until they have 
an opportunity to win a world title, and our business is so 
loaded down, loaded with low-paying--that red light always goes 
on when I am speaking. I have got to shorten my answers. There 
is so little money at the lower levels of boxing that it is 
very important for fighters to get hooked up with promoters.
    The unfortunate thing, and where we are sitting here today, 
is that we have got promoters that will promote unfairly, will 
do things that we are sitting here discussing. And 
unfortunately it is a reflection on our whole business. When we 
make an investment into a fighter, that investment is to get 
them to the world title so that we can all enjoy money. A 
fighter's percentage that he pays to a manager in our case, and 
I can't speak for any other promoters--in our case we have no 
piece of any management or fighter's share. We are obligated 
through our contracts to pay a fighter a certain amount of 
money minimum to be negotiated in good faith above that minimum 
and our--any type of revenue we would receive are based on the 
promotion being successful or unsuccessful, depending upon the 
case.
    Mr. Shimkus. Mr. Chairman, if I could follow up with this.
    Mr. Tauzin. Without objection the gentleman's time is 
extended.
    Mr. Shimkus. Do promoters receive other revenue in the 
industry other than their contractual relationship with the 
boxer?
    Mr. Goossen. There isn't necessarily a contractual 
obligation financially for a promoter to make X amount of 
dollars. The risk is normally only with the promoter. We have 
to put up money, and hopefully through the generation of ticket 
sales, site fees, international television, domestic 
television, sponsorships we are able not to only pay for 
commitments to the fighters and to the commissions, everyone 
else, but that hopefully we are able to make some money through 
that promotion. So there isn't any clear-cut percentage that a 
promoter receives. Sometimes it could be a profit; sometimes it 
could be a loss.
    Mr. Shimkus. Thank you, Mr. Chairman. I yield back.
    Mr. Tauzin. Thank you very much. The Chair is going to 
relinquish the Vice Chair to continue this hearing. I have to 
move to another function, but I want to conclude with a couple 
words. First of all, to boxers like Mr. Daniels, you know this 
sport owes an awful lot, really does, the hours these young 
fighters put into preparing themselves, and as Mr. Oxley 
pointed out, having those day jobs to keep them going while 
they are constantly in training waiting for that phone to ring, 
and what they contribute to the sport compels us, I think, to 
think seriously about changing some rules up here to better 
give them a chance to have a decent contract and have a chance 
to get that big shot 1 day.
    But there is another group of witnesses who are not here 
sitting at the table. That is the sports fans who buy those 
pay-per-view you know tickets, and who attend the live events, 
and who support HBO and Showtime and others, and, give them a 
lot of credit, spend a lot of money helping the boxers get seen 
and have a chance to move up in the ranks, too. As you pointed 
out the fact you got on a couple of televised fights, I know 
that has helped, had to help your career.
    So it is to those sports fans who you know bought those 
pay-per-view tickets at a healthy price to watch a fight they 
all agreed was misjudged badly. The boxer Mr. Holyfield is a 
beloved figure in boxing. I saw him the other night. He was at 
the Roy Jones, cheers from crowds. He is extremely well 
admired, and yet his career was so badly tarnished by that 
decision that you wonder why we let this happen for so long.
    In short, let me thank you for coming today and for sharing 
with us your support for what Mr. Oxley and Chairman McCain are 
doing. I want to pledge to you my personal help and support in 
moving this legislation. You have given us some ideas to 
improve it, particularly your thoughts about contracts entered 
into long before you ever get a 10-round fight. I think that is 
a very excellent consideration we need to take into account.
    And finally while we can't regulate the fees that are paid, 
we certainly ought to do something about the fact--about 
stopping a boxer being caught in two or three such managerial 
fees where there is nothing left for him. There ought to be 
something, and perhaps we ought to think about that, that 
prevents a boxer from ending up in other contracts. And I know 
in a codal system in Louisiana we prevent contracts that are 
clearly designed to defraud one of the parties out of their 
rights, and the contract where you give up 2 and 3 times the 33 
percent sounds like you have been defrauded out of your rights 
as a boxer, and perhaps we ought to give that some thought, 
too. But in any event, I want to offer my help to you and your 
efforts to get this legislation moving.
    The Chair now recognizes Mr. Oxley in the Chair, with my 
thanks to all the witnesses today.
    Mr. Oxley [presiding]. Let me ask the first question of Mr. 
Sirb on this round. As you know, we passed legislation 3 years 
ago, and many of us felt that it was a solid first step. Could 
you take us through some of the pluses and perhaps some of the 
shortcomings of the previous legislation and which are the 
areas that we need to work on?
    Mr. Sirb. Well, the two biggest things that really were 
great successes so far were the passing of the Federal ID 
system. That improved boxing 100 percent. Every boxer now has a 
Federal ID card with his picture on it, a six-digit number that 
follows him wherever he goes, which helps us in recordkeeping 
and helps us if he is medically suspended to track this guy. So 
when a boxer comes into your State, he gives you the card.
    The ABC developed the card at no cost to the State 
commissions. We gave out over 5,000 of these cards. And when 
the boxer comes to your State, he hands you the card. You can 
see his picture ID, birth date, Social Security. That part has 
cleaned up 100 percent in boxing. That has really improved. 
Along with that, with the help of the Professional Boxing 
Safety Act, was the medical suspensions. By making it a crime 
to participate while medically suspended raised every State up 
to a new level. They had to move up to a new level. The ABC put 
this national suspension list on the Web. It is instantaneously 
updated. You can go right onto the Web page. You can look at a 
boxer's name. You can see how long he has been medically 
suspended, why he was suspended, and what State put him on 
suspension. That site is used constantly by not only promoters, 
but matchmaker organizations and State commissions so that when 
you have a fight card come to your State, you can look real 
quick on the suspension list: I can't let him fight; he is on 
suspension right now.
    Those are the two big things that have really improved, and 
that comes right from that Professional Boxing Safety Act. 
There is no question about that.
    Mr. Oxley. And what would have happened in the Mike Tyson 
situation had not that legislation been on the books regarding 
uniform policing?
    Mr. Sirb. You know, with Mike Tyson being such a monetary 
draw, if he came into your State, there is no question that he 
would have fought, you know, a few months or a couple months 
somewhere because of the fact that you know he brings in such a 
draw on that. As you stated in your testimony, that happened 
about a day after, a couple days after the actual bill took 
effect. That is when I just became president. The first thing I 
got thrown at me was that situation. And I was very proud of 
all the State commissions that stuck together. We--I think we 
handled it. Even though we may have had some problems, I think 
we handled that situation. And again, it came from the Safety 
Act that gave us that authority.
    Mr. Oxley. It would have been very tempting, I think, for 
some State to look the other way.
    Mr. Sirb. Even my State, myself, of course, it would have 
been tempting. You are talking about an individual who draws in 
millions of State revenue when he fights in Nevada and other 
major casino States. I am sure, yeah, it would have been 
tempting.
    Mr. Oxley. Mr. Goossen, you served as a member of the 
National Association of Attorneys General Boxing Task Force. 
What recommendations came out of those meetings? Which ones 
should we consider as part of the boxing reform legislation?
    Mr. Goossen. Mr. Oxley, the recommendations that I think 
were the key issues and very important for the growth of our 
industry was that we needed some establishment of uniform rules 
and regulations, including the medicals, as we discussed 
earlier. I think it is a key ingredient for the success of our 
industry that the States have the governing power over 
everyone. Fighters, organizations, managers, promoters, 
trainers, I don't care who it is, if they are involved in the 
business and they are making any type of revenue off the event, 
they have got to be governed by the State commission. If the 
States lose their authority, then boxing is a freelance sport 
once again, and once that happens, we sit here in front of you 
looking for ways to get the industry back on the right footing.
    We need--and I think it was brought out--we relied on the 
ABC and Greg Sirb very much as it relates to overseeing not 
only the establishment of uniform rules and regulations, but 
also the need for uniform contracts between promoters and 
fighters. We need those at a data base probably established at 
the ABC. That will allow our industry to have an opportunity to 
make aware that not only is a certain fighter tied to a certain 
promoter, but that those contracts are within the rules and 
requirements established by either legislation or our own 
policing through the ABC. I would think those were really the 
high points of being involved with the boxing task force.
    Mr. Oxley. Mr. Holden, do you have a comment, as well, as a 
promoter?
    Mr. Holden. Well, I think that it relates to my opening 
statement. I am, again, 100 percent in favor of the States to 
enforce all the laws. I would like to make one quick statement 
that a State commissioner told me last month, because I was 
calling around. I knew I was going to testify. A lot of times a 
State commissioner can lose power, and a decision could go the 
wrong way, and he has no control. For instance, this one 
commissioner told me when he was new, there was a title fight 
coming in. It wasn't this gentleman's bout, but they had to 
make him use their judges, their referees, and he sat and he 
watched the fight, and it was a bad decision. You know, the 
decision was wrong. But this commissioner had no control. He 
couldn't reprimand the judges because they were out of State, 
they were not his. He couldn't say anything to the referee. He 
was out of State, and he was not his.
    Again, if we are going to give the States power to enforce 
boxing, we need to give them full power. But there is a double-
edged sword to that. If a State commissioner messes up, he is 
the one that we should blame. Just like the Holyfield-Lewis 
fight everyone says, who is to blame, who is to blame? If you 
put the State commissioner in charge all the way down to pick 
the judges, the referees, then you have one man to point your 
finger at.
    Mr. Oxley. So accountability is critical in this whole 
encounter.
    I guess you would agree with that, Mr. Sirb, in terms of 
the accountability of the State commissions.
    Mr. Sirb. No question. If the State commissioner has the 
control to regulate or--which he is given the right to by his 
Governor or State laws, then he should be accountable for it. 
If he messes up, then the accountability should stop at his 
front door. I have no problem with that.
    Mr. Oxley. Some folks criticized the former legislation, 
and even some may criticize this from a States rights 
standpoint, but really our goal is to empower States so they 
can take the reins and take control of this situation and 
indeed assume the responsibility also and the accountability 
for what happens, both good and bad.
    Let me yield to my friend from Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Sirb, there are 48 members of the association; is that 
right?
    Mr. Sirb. Correct.
    Mr. Shimkus. Are there some States that do not have boxing 
commissions?
    Mr. Sirb. Yeah, I am pretty sure we currently have five 
that do not have a boxing commission. So in those States when 
they want to have fights under the Professional Boxing Safety 
Act, they have to apply to a another State commission to come 
in and sanction their event. One we do a lot in is the State of 
Colorado. That probably does about 10 to 12 shows per year 
without a State commission. We are trying to get a commission 
formed.
    The ABC is very much in favor if you are going to have 
boxing, form a commission. And again, it comes back to because 
that is where the authority lies, and that is where the 
responsibility should be.
    Mr. Shimkus. Let me finish with Mr. Daniels. I am a West 
Pointer, and our plebe year at West Point we are required to 
take boxing, so that is my only experience in the ring, 
although I do have the experience of getting hit and having all 
my nerve endings tingle at one time. Obvious to say, I lost 
that fight.
    After a bout are you ever as--as the athlete, are you ever 
given a final accounting of the income and expenses and some 
type of ledger by which you can make a determination of whether 
you have been fully compensated and that there hasn't been any 
additional expenses posted that didn't really qualify?
    Mr. Daniels. The answer to that is no. I haven't.
    Mr. Shimkus. Do you think that would be a needed reform?
    Mr. Daniels. Certainly. It could only help to make the 
boxer gain trust about his manager or promoter so that 
everything is there in black and white and you can see that, 
hey, everything here makes good sense, the promoter is not 
taking any money from you. Everything you have here is yours.
    Mr. Shimkus. And I think we deal with this type of 
environment all the time, and really the sunshine on an area 
that is perceived as darkness is always a good antiseptic. And 
that would probably be another good thing to look at as we deal 
with this issue. I appreciate your testimony. Mr. Chairman, I 
yield back.
    Mr. Oxley. I thank the gentleman for his interest. And we 
thank all of you for a most enlightening hearing. Your 
participation here and support of our legislation is most 
important, and it really gives us the kind of impetus that we 
need to get legislation enacted.
    The Chair would ask unanimous consent that all members' 
statements be made part of the record. And with that--and 
again, our thanks for your participation--the subcommittee 
stands adjourned.
    [Additional statement submitted for the record follows:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Boxing is perhaps the oldest sport in existence, dating back to the 
Sumerians in 2600 BC. The ancient Greeks introduced boxing to the 
Olympics in 688 BC.
    Three years ago, the Commerce Committee reported historic 
legislation, the Professional Boxing Safety Act. This Act created the 
first comprehensive nationwide regulation for the sport of boxing. It 
was a first step, empowering the states to establish a uniform 
licensing system with minimum safety standards for boxers.
    Today, we are taking the next step. Boxing has begun to cleanup its 
act. But it is still rife with corruption, tainted by conflicts of 
interest and unconscionable contract requirements. We have before us 
legislation to address these problems.
    I look forward to hearing from today's witnesses their view of 
which structural problems in boxing are the most ripe for legislative 
solutions, and what approaches our Committee should consider. I also 
look forward to any comments or suggestions for improvement on H.R. 
1832, the Muhammad Ali Boxing Reform Act.

    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

</pre></body></html>
